IN THE SUPREME COURT OF THE UNITED STATES

Vivian EPPS, Petitioner,

v.
CVS Health Corporation, Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE CALIFORNIA COURT OF APPEALS
OF THE NINTH CIRCUIT COURT

CERTIFICATE of SERVICE

I, Vivian Epps, certify that on May 6, 2021, a copy of the Petition for Writ of Certiorari and a copy
of this Certificate of Service, were mailed certified to Respondent and Respondent's
undersigned counsel Robert Zelm, et al to below address.
Manning & Kass Law Office et al
3636 North Central Avenue, ll1h Floor
Phoenix, Arizona, 85012

------, May 6, 2021
Vivian EPPS
411 E. Indian School Rd., #3119
Phoenix, Arizona, 85012
Vivian.epps(a>va.gov

602-277-5551 ext. 5206
Page-7

